No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF COMPLIANCE

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 4521 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 26. 2020

1(fflattiuL
(Signature)

